No. 20-6490

IN THE

SUPREME COURT OF THE UNITED STATES
MARIO ALLAN MONTANO, Applicant,
v.
STATE OF MICHIGAN,
OAKLAND COUNTY CIRCUIT COURT JUDGE, Respondent.
PROOF OF SERVICE
I, Mario Allan Montano, do swear or declare that on this date, December 18, 2020, as
required by Supreme Court Rule 29 I have served the enclosed EMERGENCY APPLICATION
FOR A STAY OF EXECUTION PENDING THE DISPOSITION OF THE PETITION FOR
WRIT OF CERTIORARI, APPENDIX, THIS PROOF OF SERVICE on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Honorable Kameshia D. Gant, Courtroom 2A, Oakland County Courthouse, 1200 N. Telegraph
Rd., Dept. 404 , Pontiac, MI 48341.
1 declare under penalty of perjury that the foregoing is true and correct.
Executed on December 18, 2020.

Mario Allan Montano
Applicant

